No. 20-637
IN THE

~upreme (!Court of tbe mntteb ~tates
DARRELL HEMPHILL,

Petitioner,
V.

STATE OF NEW YORK,

Respondent.

CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member 1n good standing of the bar of this Court and
that the Brief of the Bronx Defenders, Neighborhood Defender Service of Harlem,
Brooklyn Defender Services, Queens Defenders, and New York County Defender
Service as Amici Curiae in Support of Petitioner contains 6,246 words and complies
with the word limitation established by Rule 33.l(g)(xii) of the Rules of this Court.
Dated: June 29, 2021

David Debold

